No. 20-331
IN THE SUPREME COURT OF THE UNITED STATES
_________________
DONALD J. TRUMP, PRESIDENT OF THE UNITED STATES, PETITIONER
v.
DISTRICT OF COLUMBIA, ET AL.
____________________________
CERTIFICATE OF SERVICE
It is hereby certified that all required to be served have been served with copies of the
REPLY BRIEF FOR THE PETITIONER via email and first-class mail, postage prepaid, this
23RD day of December, 2020.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contains 1955
words, excluding the parts of the document that are exempted by Supreme Court Rule
33.1(d). I declare under penalty of perjury that the foregoing is true and correct.
Executed on December 23, 2020.

Jeffrey B. Wall
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
December 23, 2020
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Supervisor,
Case Management Specialist, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

20-0331
TRUMP, DONALD J., PRESIDENT OF THE UNITED
STATES
DISTRICT OF COLUMBIA, ET AL.

LOREN LINN ALIKHAN
SOLICITOR GENERAL
OFFICE OF THE ATTORNEY GENERAL FOR
THE DISTRICT OF COLUMBIA
OFFICE OF THE SOLICITOR GENERAL
400 6TH STREET, NW, SUITE 8100
WASHINGTON, DC 20010
202-727-6287
LOREN.ALIKHAN@DC.GOV
LAURA C. BECKERMAN
CITIZENS FOR RESPONSIBILITY & ETHICS IN
WASHINGTON
1101 K STREET NW
SUITE 201
WASHINGTON, DC 20005
202-408-5565
LBECKERMAN@CITIZENSFORETHICS.ORG
BRIAN E. FROSH
ATTORNEY GENERAL
OFFICE OF THE ATTORNEY GENERAL OF
MARYLAND
CONSUMER PROTECTION DIVISION
200 ST. PAUL PLACE
BALTIMORE, MD 21202
BFROSH@OAG.STATE.MD.US

DEEPAK GUPTA
GUPTA WESSLER PLLC
1900 L STREET, NW
SUITE 312
WASHINGTON, DC 20036
202-888-1741
DEEPAK@GUPTAWESSIER.COM
JOSHUA ADAM MATZ
KAPLAN HECKER & FINK LLP
350 5TH AVENUE
SUITE 7110
NEW YORK, NY 10118
929-294-2537
JMATZ@KAPLANHECKER.COM
ROBERT W. RAY
ZEICHNER ELLMAN & KRAUSE LLP
1211 AVENUE OF THE AMERICAS,
40TH FL.
NEW YORK, NY 10036
212-826-5321
RRAY@ZEKLAW.COM
JOSEPH M. SELLERS
COHEN MILSTEIN SELLERS & TOLL PLLC
1100 NEW YORK AVE., N.W.
SUITE 500, WEST TOWER
WASHINGTON, DC 20005
202-408-4600
JSELLERS@COHENMILSTEIN.COM
CHRISTINE ELIZABETH WEBBER
WEST TOWER
1100 NEW YORK AVENUE
SUITE 500
WASHINGTON, DC 20005-0000
202-408-4600

